Memorandum from the Office of the Inspector General



June 13, 2007

John E. Long, Jr., WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2007-10997 – REVIEW OF TEMPORARY SHARES
FOR SENSITIVE INFORMATION



Attached is the subject final report for your review and final action. Your written comments,
which addressed you management decision and actions planned, have been included in the
report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Phyllis R. Bryan, Project Manager, at (865) 632-4043
or Jill M. Matthews, Director, Information Technology Audits, at (865) 632-4730. We appreciate
the courtesy and cooperation received from your staff during the audit.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

PRB:SDB
Attachment
cc (Attachment):
      Steven A. Anderson, SP 5A-C
      William R. Brandenburg, Jr., MP 2B-C
      Maureen H. Dunn, WT 6A-K
      R. Clay Eckles, CTR 1P-M
      Frank A. Foster, OCP 2C-NST
      Nicholas P. Goschy, Jr., WT 6A-K
      Tom D. Kilgore, WT 7B-K
      Stacie A. Martin, MP 3C-C
      Richard W. Moore, ET 4C-K
      E. Wayne Robertson, MP 3B-C
      Anthony D. Smith, WT 5A-K
      OIG File No. 2007-10997
Office of the Inspector General   Audit Report
                                  To the Chief Administrative
                                  Officer and Executive Vice
                                  President, Administrative
                                  Services




REVIEW OF TEMPORARY
SHARES FOR SENSITIVE
INFORMATION




Audit Team                                     Audit 2007-10997
Phyllis R. Bryan                                  June 13, 2007
Brian S. Childs
Kyle B. Cox
Melissa M. Neusel
Sarah E. Tipton
Stephanie R. Turner
Office of the Inspector General                                                                 Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY.......................................................................... i

BACKGROUND ......................................................................................... 1

OBJECTIVES, SCOPE, AND METHODOLOGY ............................... 1

FINDINGS ................................................................................................... 2
    PII AND BUSINESS SENSITIVE INFORMATION.................................... 2

    NON-BUSINESS INFORMATION ............................................................ 3

    MANAGEMENT OF TEMPORARY SHARES .......................................... 4

    NOTIFICATION POLICY .......................................................................... 4

    INFORMATION SECURITY POLICY ....................................................... 4

RECOMMENDATIONS ........................................................................... 5



APPENDIX
MEMORANDUM DATED JUNE 8, 2007, FROM JOHN E. LONG, JR., TO
BEN R. WAGNER




Audit 2007-10997
Office of the Inspector General                                                               Audit Report


EXECUTIVE SUMMARY
We performed an audit of Tennessee Valley Authority (TVA) temporary share
drives to determine the extent to which personally identifiable information
(PII)i and/or other sensitive information is being stored on these drives.
Temporary share drives are provided at geographic locations around the
Valley and are used by a broad spectrum of TVA employees to support the
transfer and sharing of extremely large data files. Information Services (IS)
identified 20 temporary shares; however, we were only able to access 17 of
the shares which were generally available to all users within TVA, including
contractors with TVA IDs.

In summary, we determined:

•     PII (32 instances) and other sensitive information (69 instances) were not
      properly secured thus exposing the information to anyone with a TVA
      network ID. The lack of protection of this information is a violation of TVA
      policy and could result in a violation of the Privacy Act.

•     Shares were being used to store non-business related information (four
      instances) which included games, personal pictures, and other
      documents.

•     TVA does not have a policy or guidance for management of temporary
      shares to address the proper use of the share (i.e., types of information
      that can be stored, the unsecured nature of the share), responsibilities of
      the users, and maintenance (i.e., maximum time frame for retention of
      files on the share).

•     TVA Standard Programs and Processes (SPP) 12.9 on Computer
      Security and Privacy Incident Response, which includes procedures for
      notifying TVA employees and their dependents, contractors, and retirees
      and their dependents when PII has potentially been compromised, has
      yet to be implemented.

•     Two business practice drafts (1) TVA Information Security Policy, which
      describes classification and protection of information, and (2) Acceptable
      Use of Information Resources (Rules of Behavior), which explicitly
      prohibits storage of non-TVA information on TVA servers, have yet to be
      implemented.


i
    Personally identifiable information means any information about an individual maintained by an
    agency, including, but not limited to, education, financial transactions, medical history, and criminal
    or employment history and information which can be used to distinguish or trace an individual’s
    identify, such as their name, social security number, date and place of birth, mother’s maiden name,
    biometric records, etc., including any other personal information which is linked or linkable to an
    individual.

Audit 2007-10997                                                                                     Page i
Office of the Inspector General                                       Audit Report


As instances of questionable items were found, we notified IS personnel who
coordinated with the Organization Security Officer (OSO) or the person who
put the information on the share to determine the appropriate level of
security to be assigned to the item. The instances identified were put on the
shares by individuals across multiple TVA organizations. The high risk items
like PII information were immediately secured by IS. The determination of
the sensitivity of some medium to low risk items is still underway by IS and
the OSO.

We recommend Chief Administrative Officer and Executive Vice President,
Administrative Services, ensure:

1. OSOs and IS continue the review of the identified items and restrict
   access as needed.

2. The draft procedure TVA-SPP-12.9 on Computer Security and Privacy
   Incident Response is implemented.

3. For PII data exposures identified in this audit, general and/or individual
   notifications are made regarding the type of data exposed and TVA
   management’s assessment of risk regarding the data exposures.
   Individual notice should be given whenever PII, such as social security
   numbers or other information which could be used in identity theft, is
   disclosed.

4. The draft business practices on Information Security Policy and
   Acceptable Use of Information Resources and other guidance on the use
   of temporary shares are implemented or developed and all TVA
   employees and contractors are trained on these policies.

Management’s Response – TVA management agreed with the findings and
provided completed and planned actions to implement the recommendations
(see the Appendix for TVA comments). In summary, TVA has completed or
plans to complete (1) a review of the remaining temporary shares;
(2) implementation of the draft procedure TVA-SPP-12.9 on Computer
Security and Privacy Incident Response; (3) general notification of the
incidents, including employee and, as necessary, public notification; and
(4) implementation of draft business practices on Information Security Policy
and Acceptable Use of Information Resources, associated training and
provide guidance on use of temporary shares.

Regarding individual notification, TVA management is (1) awaiting the results
of its risk assessment before making a decision on individual notifications
and (2) informing the contractor of the PII exposure of their database and
requesting the contractor to advise TVA regarding any notifications the
contractor makes.


Audit 2007-10997                                                           Page ii
Office of the Inspector General                                        Audit Report


Auditor’s Response – We concur with management’s proposed actions for
recommendations 1, 2, and 4. Regarding recommendation 3, we believe
TVA’s decision to perform a risk assessment to determine the level of
notification required is consistent with OMB guidance. We recommend TVA
(1) issue a general notification quickly and (2) expedite the risk assessment
process to ensure individual notification, if warranted, is performed in a timely
manner. The OIG will conduct a follow-up review after TVA completes its
risk assessment process. The review will determine whether TVA’s decision
regarding individual notification(s) was reasonable.




Audit 2007-10997                                                           Page iii
Office of the Inspector General                                        Audit Report


BACKGROUND
In March 2007, Information Services (IS) notified the Office of the Inspector
General (OIG) of an incident in which Performance Review and Development
(PR&D) forms had been stored in a temporary share on an unsecured
server. The PR&D forms identified the name of the person and employee ID
but did not contain social security numbers. This information was available
on a temporary share drive for approximately two hours. The OIG initiated an
audit (2007-039T) to review the PR&D data exposure. In the course of that
audit, we identified the potential for similar data exposures on other
temporary share drives.

Temporary share drives are provided at geographic locations around the
Valley and are used across Tennessee Valley Authority (TVA) organizations
by TVA employees and contractors to support the transfer and sharing of
extremely large data files. These share drives are generally accessible to all
users within TVA, including contractors with TVA IDs.


OBJECTIVES, SCOPE, AND METHODOLOGY
The objective of this audit was to determine the extent to which personally
identifiable information (PII) and/or other sensitive information is being stored
on temporary share drives. The scope of the audit covered 20 temporary
shares identified by IS; however, we were only able to access 17 of the
shares.

To accomplish our objective, we:
•   Obtained a listing of the 20 temporary shares from IS.
•   Accessed each share and opened documents to determine if they
    contained any PII, TVA sensitive information, contractor proprietary
    information, or any other questionable information. We did not perform a
    100 percent review of all the nuclear shares because the five nuclear
    shares contained almost 2.2 million files. We stopped our review of these
    shares after finding numerous instances of PII or business sensitive
    information and recommended the Organization Security Officers (OSO)
    further review the shares.
•   Ranked each item as high, medium, or low risk and provided the
    information to IS for coordination and disposition with OSOs. In general,
    we used the following criteria for ranking the items:

    -    High -- Files containing PII, such as social security numbers and
         names or other identifying information, or Nuclear Safeguards
         Information.

Audit 2007-10997                                                             Page 1
Office of the Inspector General                                       Audit Report


    -    Medium -- Files potentially containing business sensitive information
         or labeled “sensitive,” “proprietary,” or other wording indicating
         distribution should be limited.
    -    Low -- Files which appeared to be personal information (pictures,
         documents, etc.)
•   Reviewed Communications Practice 8, Accessing and Using TVA
    Computing Resources; the drafts of two new business practices, TVA
    Information Security Policy and Acceptable Use of Information Resources
    (Rules of Behavior); and the draft of new Standard Programs and
    Processes (SPP), Computer Security and Privacy Incident Response.

Fieldwork was conducted in April 2007. This audit was performed in
accordance with generally accepted government auditing standards.

FINDINGS
In summary, we determined (1) PII and other sensitive information were not
properly secured thus exposing the information to anyone with a TVA
network ID; (2) shares were being used to store non-business related
information; (3) TVA does not have a policy or guidance for management of
temporary shares to address the proper use of the share; (4) TVA does not
have a policy implemented regarding the level of notification required when
PII has been compromised; and (5) two business practice drafts (a) TVA
Information Security Policy, which describes classification and protection of
information handled throughout TVA, and (b) Acceptable Use of Information
Resources (Rules of Behavior), which explicitly prohibits storage of non-TVA
information on TVA servers, have yet to be implemented.

The lack of protection of PII and other sensitive information is a violation of
TVA policy and could result in a violation of the Privacy Act. As instances of
questionable items were found, we notified IS personnel who coordinated with
the OSO or the person who put the information on the share to determine the
appropriate level of security to be assigned to the item. The instances
identified were put on the shares by individuals across multiple TVA
organizations. The high risk items like PII information were immediately
secured by IS. The determination of the sensitivity of some medium to low risk
items is still underway by IS and the OSOs.

PII AND BUSINESS SENSITIVE INFORMATION
We found 101 instances of PII for TVA and contractor personnel and
business sensitive information stored across the temporary shares. The
32 instances of PII for TVA employees and contractor employees included:

•   A database with approximately 7,900 employee names, social security
    numbers, telephone calling card numbers, and long distance

Audit 2007-10997                                                           Page 2
Office of the Inspector General                                        Audit Report


    authorization codes for the nuclear plants. Further investigation indicated
    this information was available on several occasions over the last few
    months for up to a week each time on a temporary share.
•   A database with approximately 11,000 contractor employees’ names,
    social security numbers, home addresses, telephone numbers, date of
    birth, disability codes, termination status, rehire status comments, etc.
    This database is used by a nuclear contractor to check their employees in
    and out of the plant. Further investigation of this information indicated the
    information has been available on a temporary share since 2004.
•   Documents with names and social security numbers.
•   Documents with names, social security numbers, and dosimeter readings.
•   E-mails regarding disciplinary action and incident investigations.

All PII files were secured by IS upon notification. We could not determine if
PII information had been inappropriately accessed since there is no usage
tracking available for temporary shares.

We also found 69 instances of business sensitive information of TVA and
contractors stored across the temporary shares. The information included:
•   TVA documents or drawings marked “Sensitive” or “Business Sensitive”
•   Contractor documents or drawings marked “Proprietary Information”
•   Contractor proposals
•   Document marked “Attorney/Client Privilege”

In addition to the documents described above, we noted numerous instances
of unmarked substation drawings, nuclear plant component drawings,
pictures of components in plants and substations, etc. We questioned these
items as potentially sensitive information that should not be available to
everyone with a TVA ID. These documents are being reviewed by the OSOs
to determine if access should be restricted.

NON-BUSINESS INFORMATION
We found four incidents of shares being used to store non-business related
information which included personal pictures and other documents, and
Nintendo games which could be played on a Nintendo Entertainment
Emulator. Current Communications Practice 8, states “Use of all computing
resources in TVA is to be utilized in support of legitimate TVA business
interests.” A draft business practice, Acceptable Use of Information
Resources (Rules of Behavior), provides explicit prohibitions including
“Storage of non-TVA information on TVA servers and other electronic
storage devices.” According to TVA’s IT Security organization, this draft
business practice is in the final issuance process.



Audit 2007-10997                                                            Page 3
Office of the Inspector General                                         Audit Report


MANAGEMENT OF TEMPORARY SHARES
TVA does not have a policy or guidance for management of temporary
shares to address the proper use of the share (i.e., types of information that
can be stored, the unsecured nature of the share), responsibilities of the
users, and maintenance (i.e., maximum time frame for retention of files on
the share). As such, we observed:
1. Some temporary shares appear to have evolved from temporary to
   permanent storage areas. For example, five nuclear shares store over
   720 GB of information and have almost 2.2 million files, some of which
   are over 10 years old. In addition, accounts for nuclear personnel are
   automatically mapped to these shares.
2. Two of the 20 temporary shares had a defined time for weekly deletion of
   documents. Files could remain on the other shares until the share was
   cleaned up by users (1) after email notification to the site that the folder is
   full or (2) by request from site IS personnel.
3. There was nothing to identify the shares as unsecured temporary storage
   areas. IS put a file on one share to identify it as unsecured after PR&D
   information was found on the share.

NOTIFICATION POLICY
While there is not a federal law at this time requiring notification by TVA
when PII has been compromised, there is proposed legislation which would
require federal agencies to notify individuals when their PII has been
compromised. TVA has drafted a SPP which defines the process for
responding to computer security and privacy incidents. TVA-SPP-12.9 on
Computer Security and Privacy Incident Response contains (1) guidelines for
establishing the response team, which includes an Office of the General
Counsel representative; (2) a risk assessment methodology for determining
under what circumstances a general notification and/or individual notification
is warranted; and (3) steps to be performed when notifying. According to
TVA’s IT Security organization, this SPP is in the final issuance process.

INFORMATION SECURITY POLICY
TVA has drafted a Business Practice to establish TVA’s Information Security
Policy. This business practice is intended to supersede the outdated
Protection of Sensitive Information and Records policy issued on
December 10, 1996. The draft business practice describes the classification
and protection mechanisms for information handled throughout TVA.
According to TVA’s IT Security organization, this draft business practice is in
the final issuance process.




Audit 2007-10997                                                             Page 4
Office of the Inspector General                                        Audit Report


RECOMMENDATIONS
We recommend Chief Administrative Officer and Executive Vice President,
Administrative Services, ensure:

1. OSOs and IS continue the review of the identified items and restrict
   access as needed.

2. The draft procedure TVA-SPP-12.9 on Computer Security and Privacy
   Incident Response is implemented.

3. For PII data exposures identified in this audit, general and/or individual
   notifications are made regarding the type of data exposed and TVA
   management’s assessment of risk regarding the data exposures.
   Individual notice should be given whenever PII, such as social security
   numbers or other information which could be used in identity theft, is
   disclosed.

4. The draft business practices on Information Security Policy and
   Acceptable Use of Information Resources and other guidance on the use
   of temporary shares are implemented or developed and all TVA
   employees and contractors are trained on these policies.

TVA Management’s Response – The Chief Administrative Officer and
Executive Vice President, Administrative Services, agreed with the findings
and provided proposed corrective actions to address our recommendations
(see the Appendix). In summary:

1. OSOs and IS completed the review of the temporary shares. An
   additional 169 instances of PII were identified. This information has been
   moved to a secure, hidden share. TVA will be conducting a risk analysis
   on this information. IS will institute a plan to monitor and review all share
   drives for sensitive information. Details of this plan will be completed by
   July 31, 2007.

2. TVA is in the process of converting TVA level SPPs to TVA Procedures.
   TVA-SPP-12.9 will become a TVA procedure on Computer Security and
   Privacy Incident Response. Once converted, the procedure will go
   through the standards review process and is expected to be deployed by
   September 30, 2007.

3. Even though the PII information was accessible within TVA by those with
   an authorized TVA ID, there is no evidence to suggest that this data has
   been acquired by an unauthorized person or disclosed outside of TVA.
   TVA will conduct a risk analysis for all identified instances of PII and will
   tailor its response to the nature and scope of the risk and ensure the

Audit 2007-10997                                                            Page 5
Office of the Inspector General                                        Audit Report


    response complies with any applicable federal regulations. These
    assessments are expected to be completed for the original instances by
    June 29, 2007, and the remaining instances by July 31, 2007.

    Regarding notifications, TVA stated they (1) do not plan to issue
    individual notification of the exposure of sensitive information unless the
    risk assessments indicate a need to do so; and (2) will issue general,
    broad notification of the incidents, including employee and, as necessary,
    public notification. For the contractor database containing PII, TVA plans
    to notify the contractor and ask them to inform TVA of any general or
    individual notification the contractor makes.

4. The draft business practices are currently in the IS review and comment
   phase. The remaining implementation activities include: OSO, IT Council,
   and SBU review, comment resolution, and deployment activities
   (communication, publication, and training). The expected completion
   date for full deployment is June 30, 2007.

    The continued use of temporary shares is being evaluated by IS. Based
    on this evaluation, appropriate guidance on the proper management and
    use of temporary shares will be developed and is expected to be issued
    to business units by June 30, 2007.

Auditor’s Response – We concur with management’s proposed actions for
recommendations 1, 2, and 4. Regarding recommendation 3, we believe
TVA’s decision to perform a risk assessment to determine the level of
notification required is consistent with OMB guidance. We recommend TVA
(1) issue a general notification quickly and (2) expedite the risk assessment
process to ensure individual notification, if warranted, is performed in a timely
manner. The OIG will conduct a follow-up review after TVA completes its
risk assessment process. The review will determine whether TVA’s decision
regarding individual notification(s) was reasonable.




Audit 2007-10997                                                            Page 6
APPENDIX
Page 1 of 3
APPENDIX
Page 2 of 3
APPENDIX
Page 3 of 3
